No. 21-

SG S 9

•

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021

WILLIE POWELL,
Petitioner,
vs.
THE UNITED STATES OF AMERICA,
Respondent.

APPENDIX CONTENTS
Document 1: Opinion Below
Document 2: Plea and Acknowledgment of Rights Form from State Court

USCA11 C

20-12353 Date Filed: 04/09/2020Page: 1 of 4

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12353
Non-Argument Calendar

D.C. Docket No. 4:19-cr-00013-MW-MAF-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
WILLIE POWELL,
Defendant-Appellant.

Appeal from the United States District Court
for the Northern District of Florida
(April 9, 2021)
Before MARTIN, BRANCH, and LUCK, Circuit Judges.
PER CURIAM:

USCA11 C.

20-12353 Date Filed: 04/09/20240Page: 2 of 4

Willie Powell appeals his conviction for possessing a firearm and ammunition
as a felon under 18 U.S.C. section 922(g)(1), arguing that section 922(g) is
unconstitutional, facially and as applied to him, because it violates the Commerce
Clause. We affirm because, as Powell concedes, his argument is foreclosed by our
binding precedent.
Powell was stopped by police for driving over the speed limit. Because
Powell did not have a valid license, he was arrested. While Officer Mitch Outlaw
arrested Powell, Officer Robert Amos looked into the car and saw loose marijuana
on the passenger seat. The officers then searched the car and found "zip-style
baggies, three of which contained a white powdery crystal-type substance,"
marijuana in a glass jar, and a backpack that contained a loaded firearm, a laptop,
and drug paraphernalia. The firearm was manufactured in Georgia and its
ammunition was manufactured in Brazil. Powell was indicted for possessing a
firearm and ammunition as a convicted felon.
After the government presented these facts at trial, Powell moved for a
judgment of acquittal. Powell argued that the felon-in-possession statute, 18 U.S.C.
§ 922(g)(1), violated the Commerce Clause, facially and as applied to him, because
it punished the possession of a firearm even though there was no evidence that he
was the one who transported the firearm and ammunition in interstate and foreign
commerce. Powell conceded, however, that the district court was bound by Eleventh
2

USCA11 CO20-12353 Date Filed: 04/09/202411Page: 3 of 4

Circuit precedent to deny his judgment of acquittal motion. So that's what the
district court did.
The jury found Powell guilty as charged. He was sentenced to 180 months'
imprisonment and three years of supervised release.
On appeal, Powell makes the same argument he made in the district court: the
felon-in-possession statute, section 922(g), is unconstitutional because it "goes
beyond Congress's power under the Commerce Clause."' As he did before the
district court, Powell acknowledges that "[t]his Court has repeatedly" held otherwise
and that "the Court is constrained by the prior precedent rule."
We have, many times, rejected the same Commerce Clause argument that
Powell made in the district court and that he makes here. See United States v.
Johnson, 981 F.3d 1171, 1192 (11th Cir. 2020) (holding that Eleventh Circuit
precedent foreclosed the argument that the felon-in-possession statute was
unconstitutional, facially and as applied, under the Commerce Clause); United
States v. Wright, 607 F.3d 708, 715-16 (11th Cir. 2010) (holding that section 922(g)
was constitutional as applied because the "government established that the firearms
involved in Wright's offense were manufactured outside of Florida, the state in
which the offense took place," which meant "the firearms necessarily traveled in

I We review de novo the constitutionality of statutes. United States v. Scott, 263 F.3d
1270, 1271 (11th Cir. 2001).

3

USCA11 420-12353 Date Filed: 04/09/20241)Page: 4 of 4

interstate commerce and therefore satisfied the minimal nexus requirement"); Scott,
263 F.3d 1270 (holding that recent Supreme Court cases had not modified or
overturned the Eleventh Circuit precedent upholding the felon-in-possession
statute); United States v. Nichols, 124 F.3d 1265, 1266 (11th Cir. 1997) (holding
that section 922(g) was not unconstitutional under the Commerce Clause); United
States v. McAllister, 77 F.3d 387, 389-91 (11th Cir. 1996) ("We hold that [section]
922(g)(1) is not an unconstitutional exercise of Congress's power under the
Commerce Clause."). Like the district court, we are bound by our prior holdings on
the same issue until the Supreme Court or the en banc court hold otherwise. See
United States v. Steele, 147 F.3d 1316, 1318 (11th Cir. 1998) (en banc) ("The law
of this circuit is emphatic that only the Supreme Court or this court sitting en banc
can judicially overrule a prior panel decision." (quotation marks omitted)). Thus,
we affirm Powell's felon-in-possession conviction.
AFFIRMED.

4

IN THE CIRCUIT COURT OF THE SECOND
JUDICIAL CIRCUIT, IN AND FOR LEON
COUNTY, FLORIDA
ZU-I)

CASE NO.:

STATE OF FLORIDA,

=Mt

VS.

c.-_)

7'44.
r".

CO

Pow 5E/1--

WtiLL1S

IN

V"-

PLEA AND ACKNOWLEDGMENT OF RIGHTS

C-A-

r•-•

I hereby enter a plea of (A.)' no contest ( ) guilty in the following criminal offense(s), wilt drawing*
previous plea of not guilty.
(3f by./v4,1
s)
Count

Offense Pei.% , ()V

Count

L

Offense

Count

3
LI

Count
Count

fiti-•

•

Max/Min Penalty

maximia Penalty

Offense

P054. of- JONI- c Jr%
PO% Cie Pa Mb ()AMP} .

Offense

NU sifitAD D

Max/Min Penalty

Offense

Max/Min Penalty

DOL,

-7

-16

f)1

k r. 3/3 (L.,
(1) CI Mt 5 }AA

Max/Min Penalty

My plea is entered with the understanding that the State has agreed or does not object to the following
disposition of my case:
Jail Credit

1,1

f

3t — A

JO

CAS-1 I-Z.; AO aDr r)
C

"t SV216
C

lc

J

„vitt,/
irk duo 0- Mk- ( f II
Sbrva,A6 iO imd
169-11/)4 -1,-Ce
(uric/AA-0'
1V '-1 cr4'65 Vs-7)40-te (66%M.4)
Defendant must provide a DNA Sample as authorized or required by Statute for all felonies defined by
chapters 782, 784, 794, 800, 810, 812, 787 & 790.
Court Costs $

111115.,

P.D. Fee $S) „ .00
P.D. LAF $
Fla. Statute 27.52(1)(b) Fla. Statute 938.29(1)

COP$ 10 k)
Fla, Statute 938,27(8)

°%) Cr4
My plea islentered with the acknowledgment and understanding of the following:
I understand that the judge will place me under oath to question me about this plea. I must
answer the judge's questions truthfully, and if I make a false statement while under oath I could be
prosecuted for perjury.
I understand that a plea of not guilty denies my guilt, a plea of guilty admits my guilt, and a
plea of no contest means that I will not contest the evidence against me. I also underStand that if the judge
accepts this plea of guilty or no contest, there will be no trial and I will be sentenced based on my plea.
I understand the nature of the charges to which I am pleading, and. I am aware of the
maximum and minimum penalties. My lawyer has informed me of the facts the State would have to prove
before I could be found guilty and discussed with me any possible defenses that could be raised in my case.
am satisfied with my lawyer's advice and help.
I understand that if the judge accepts this plea, I give up the right to a trial, the right to
require the State to prove the charge(s) against me beyond a reasonable doubt, the right to have a jury decide
whether I am guilty or not guilty, the right to see and hear the witnesses against me and to have my lawyer
question them, the right to subpoena and present witnesses or other evidence or any defenses I may have, and
to testify or remain silent as I choose.
Filed in open court

/
(Sign on Reverse Side After Reading Both Sides Carefully)
5)
I understand that by pleading guilty or no contest 'I am giving up the right to appeal all
matters relating to the final judgment including the issue of my guilt or innocence. If the judge accepts this
plea, the only issues I will be able to appeal are those relating to my sentence and the judge's authority to
hear my case. I understand that I have 30 days to appeal the court's judgment and sentence, and if I cannot
afford a lawyer, one will be appointed for me.
I understand that if I am not a United States citizen, a plea of guilty or no contest could
result in my deportation.
If the offense to which 1 am entering this plea is a sexually violent offense or an offense that
was sexually motivated, or if I have been previously convicted of such an offense in any state or federal court,
I may be subject to involuntary commitment as a sexually violent offender under the "Jimmy Ryce Act"
when my sentence is completed. Further, I have been advised of the registration of other requirements of
sections 775.21 (Sexual Predator), 943.0435 (Sexual Offender) and 944.607 (Sexual Offender), F.S.
If I violate the terms of any community supervision, and the violation(s) are found to be
willful and substantial, I later may be sentenced to the maximum penalty permitted by law as indicated on
the reverse of this plea and rights form. HI am placed on probation, I will be required to pay a monthly cost
of supervision fee.
The judge will assess various types of financial costs (restitution, costs, fines, surcharges and
9).
attorney's fees) against me. The failure to pay any of my financial obligations may result in my driving
privileges being suspended. A conviction for certain offense may also result in my driving privileges being
suspended by the Department of Highway Safety. A charge involving controlled substances (drugs) is one of
these offenses. I have discussed this possibility with my attorney.
My lawyer has explained to me that this plea and sentence may be used in the future to
enhance criminal penalties against me should I be convicted of a new offense.
My lawyer has reviewed the nature of the evidence In this case with me. I am not aware of
the existence of any physical evidence that could be tested for DNA purposes that would tend to show that I
am innocent of this charge.
I have carefully read both pages of this form, and I understand all of the rights and duties
explained in this form. I state to the Court that I am not under the influence of medicine, drugs or alcohol,
that no one forced or threatened me to enter this plea, and that I am entering this plea freely and voluntarily.
No one has promised me anything other than what has been stated here in open court before the judge. I am
entering this plea because I acknowledge my guilt, or I believe it is in my best interest to do so. I have asked
my attorney all of the questions I have about my case and this plea and I have received complete and
satisfactory answers to my questions.
I state to the Court that I am not under the influence of drugs or alcohol, that no one forced or
threatened me to enter this plea, and that I am entering this plea freely and voluntarily. I acknowledge that I
am entering this plea because I believe it is In my best interest.
, 20 24,

SWORN this >0 day of

e',OtiftL ‘41-(1/

Defendant

I hereby certify that I am counsel for the defendant and that I have informed the defendant of the
nature of each charge against him/her, the maximum penalty, any applicable minimum penalty, the required
elements of proof, and any possible defenses. I believe the defendant understands the rights and duties
explained in this plea form and that the defendant is entering this plea freely and voluntarily with a full and
complete understanding of the consequences.

Counsel for the Defendant
Plea Accepted and Plea Form filed by:
Circuit Judge

